HHS/OIG, Audit -"Ryan White Title I Funds Claimed By a Mental Health Provider In the New York Eligible Metropolitan
Area During The Fiscal Year Ended February 28, 2002,"(A-02-03-02005)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ryan White Title I Funds Claimed By a Mental Health Provider In the New York Eligible Metropolitan Area During
The Fiscal Year Ended February 28, 2002," (A-02-03-02005)
October 14, 2004
Complete
Text of Report is available in PDF format (370 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the New York Health Department and its grant administrator ensured
that a mental health provider provided the expected level of service to CARE Act Title I eligible clients and followed
Federal requirements for charging costs to the CARE Act Title I program.  The provider did not achieve the levels
of service originally expected as part of the fiscal year 2001 contract; however, it worked with the Health Departments
grant administrator to tailor services to better meet the needs of persons living with HIV/AIDS.  In addition, the
provider generally followed Federal requirements for charging costs to the CARE Act Title I program.  As a result
of the low service levels, the providers clients may not have received all of the services they needed during fiscal year
2001; however, by the end of the fiscal year, appropriate actions had been taken to better meet the clients needs.  The
Health Department generally concurred with the facts presented in the report.